<html>
<title> - Next Steps for Refugee and Migrant Youth in Europe January 23, 2018</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115 Congress                                                                           Printed for the use of the
2nd Session                                                       Commission on Security and Cooperation in Europe
________________________________________________________________________________________________________________________                                                          



                           
   Next Steps for Refugee and Migrant Youth in Europe  
   
   

                  



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                January 23, 2018


                                                                              
                  
                                   Briefing of the
                 Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                    Washington: 2018                                                









                     Commission on Security and Cooperation in Europe
                             234 Ford House Office Building
                                 Washington, DC 20515
                                     202-225-1901
                                  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197a6a7a7c59747870753771766c6a7c377e766f">[email&#160;protected]</a>
                                   http://www.csce.gov
                                    @HelsinkiComm

                           Legislative Branch Commissioners

              HOUSE                                          SENATE
CHRISTOPHER H. SMITH, New Jersey                    ROGER WICKER, Mississippi,
          Co-Chairman                                  Chairman
ALCEE L. HASTINGS, Florida                          BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                         JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                           CORY GARDNER, Colorado
STEVE COHEN, Tennessee                              MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                      JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                            THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                           TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                               SHELDON WHITEHOUSE, Rhode Island
                        
          
            
          
          
          
                         Executive Branch Commissioners
          
                               DEPARTMENT OF STATE
	  	              DEPARTMENT OF DEFENSE
                             DEPARTMENT OF COMMERCE
          
                                      (II)

                                         







ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                              (III)
                              

 
                  Next Steps for Refugee and
                  Migrant Youth in Europe
                         ___________
                         
                       January 23, 2018


                                                                         Page
                              PARTICIPANTS

    Dr. Mischa E. Thompson, Senior Policy Advisor, Commission on 
Security and Cooperation in Europe ......................................    1

Kathleen Newland, Senior Fellow and Co-Founder, Migration Policy 
Institute, Washington, D.C. .............................................    2

Sofia Kouvelaki, Executive Director, The HOME Project, Athens, Greece ...    3








                     Next Steps for Refugee and
                      Migrant Youth in Europe
                              ----------                              

                            January 23, 2018

            Commission on Security and Cooperation in Europe
                          Washington, DC


    The briefing was held at 10 a.m. in Room SVC 203, Capitol Visitor 
Center, Washington, DC, Dr. Mischa E. Thompson, Senior Policy Advisor, 
Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Dr. Mischa E. Thompson, Senior Policy Advisor, 
Commission on Security and Cooperation in Europe; Kathleen Newland, 
Senior Fellow and Co-Founder, Migration Policy Institute, Washington, 
D.C.; and Sofia Kouvelaki, Executive Director, The HOME Project, 
Athens, Greece.

    Dr. Thompson. Good morning. My name is Dr. Mischa Thompson, and 
welcome to ``Next Steps for Refugee and Migrant Youth in Europe,'' a 
briefing hosted by the U.S. Commission on Security and Cooperation in 
Europe, also known as the Helsinki Commission. For those who may not 
know, the Helsinki Commission is an independent U.S. Government agency 
focused on human rights, economics, and security in the 57 North 
American and European countries that make up the Organization for 
Security and Cooperation in Europe, or the OSCE. The commission is 
chaired by Senator Roger Wicker, bicameral and bipartisan, and 
comprised of 12 members of Congress and the executive branch, including 
the U.S. State Department.
    The OSCE has had a focus on diverse and vulnerable populations, 
from Roma and Jewish populations to national minorities and migrants in 
Europe and the United States since its inception. This focus has 
increased in response to the recent influx of refugees and migrants in 
the region. This includes the creation of the OSCE Parliamentary 
Assembly's Ad Hoc Committee on Migration, in which members of our 
Helsinki Commission participate, and ongoing initiatives by the OSCE to 
build the capacity of civil society and governments to respond. Our 
commissioners also serve as special representatives within the OSCE's 
Parliamentary Assembly on trafficking and intolerance.
    Today we will discuss the current situation of refugee and migrant 
youth in Europe, with a focus on support, protection and integration 
services being put in place. This follows several events our commission 
held in 2017 focused on trafficking and arrivals by land and sea. I am 
very pleased to be joined today by expert Sofia Kouvelaki, Executive 
Director of The HOME Project in Athens, Greece, an organization that 
addresses the needs of refugee children, and Ms. Kathleen Newland, 
Senior Fellow and co-founder of the Migration Policy Institute, one of 
Washington's premier institutions on global migrant and refugee policy 
analysis. You can find their bios in the blue folders and online.
    And given that we only have an hour, I will begin by asking our 
speakers a few questions, after which we will have time for questions 
and discussion with our in-house and online audience. We are able to 
take comments via Facebook and can be followed under the Twitter handle 
@HelsinkiComm--so it's Helsinki C-O-M-M. We should all be certain to 
speak loudly into our microphones today for our online viewers. With 
that, I will begin by asking Ms. Kathleen Newland to begin by giving us 
a short overview of what the current situation of refugees and migrants 
is in Europe. And how many people are we talking about, for example? 
Where are they coming from and why is it that they're coming to Europe?
    Ms. Newland. Thank you very much, Mischa. It's a pleasure to be 
with you today and I'm delighted to meet Sofia. I've followed her work 
with great interest.
    The refugee and migrant situation--and these are categories that 
are often very hard to separate with a bright line, has--the good news, 
I suppose, is that it has gone down quite substantially from the peak 
of the crisis in 2015. But it still remains high, with hundreds of 
thousands of people arriving in Europe, mostly by sea. As you may know, 
an agreement between the EU and Turkey to disrupt the smuggling routes 
from Turkey to the Greek islands was put in place in March of 2016, and 
resulted in quite a sharp drop in the eastern Mediterranean route, and 
proportionally an increase in the much more dangerous, longer, and 
abusive central Mediterranean route from Libya to Italy.
    We're particularly concerned about youth in this briefing. And it's 
very hard to get an accurate assessment of the numbers. Certain 
categories of children are counted fairly reliably, particularly those 
that formally apply for asylum. And there were about 400,000 asylum 
applicants age 17 or younger in Europe in 2015 and 2016 alone. That was 
a huge increase over 2014. And the proportion of children, defined as 
those that are under 18, is--again, it's not a very reliable 
proportion, but it's assumed to be about somewhere between 15 and 20 
percent. About 5 percent of those are unaccompanied children, who are 
obviously the most vulnerable.
    During this crisis from 2015 onward, the composition of the flow 
has changed quite dramatically. Before 2015, most of the youth arriving 
in Europe and claiming asylum were from the western Balkans--Kosovo, 
Bosnia, Serbia, Macedonia, et cetera. But since 2015, the top countries 
of arrival for children have been Afghanistan, Syria, and Iraq. And I 
should point out that the recognition rates for those who apply for 
asylum from those countries is very high. It's like 68 percent. So 
children who actually manage to file an asylum claim--which is not so 
easy in many countries--are recognized as being refugees at a very high 
rate. Of course, it varies from country to country.
    If I can just mention some of the problems--and I know Sofia will 
go into this in greater detail looking at Greece particularly--but some 
of the biggest problems are an acute lack of appropriate reception 
centers and shelters for children--for unaccompanied minors in 
particular, but also for families. Long wait times for asylum hearings, 
which sort of leaves people in limbo and inhibits their access to 
services. Detention of children is widely recognized as a terrible 
problem. And of course, it's related to the lack of appropriate 
housing. And in the sort of middle and long term, there's a great 
concern about the need for firewalls between access to public services 
and immigration enforcement. This, of course, is particularly acute for 
undocumented children who are--data for undocumented is very poor, and 
causes all kinds of alarms.
    Last year the European Statistical Agency reported that 10,000 
children had gone missing--were unaccounted for in Europe. And in that 
year, there were more than 10,000 reported missing from Italy and 
Germany alone. So that was a nice round number that people sort of 
threw out there, but no one really knows what's happened to those 
children, whether they were double counted to begin with, whether they 
reunited with their families or, in the worst-case scenario, whether 
they were trafficked and sort of disappeared into the criminal 
underworld.
    Let me stop there for the moment, Mischa. There's lots more, and 
I'm sure other issues will come up in the discussion.
    Dr. Thompson. And I was actually hoping that you could really give 
us a first-hand account of what you are seeing in Greece in terms of 
arrivals from children, how they're actually being treated when they 
first arrive in the country, and if we're really seeing some of these 
policies in place that have long been talked about.
    Ms. Kouvelaki. So thank you, Mischa. It's a pleasure, Ms. Newland, 
to be on the same panel with you.
    And as Ms. Newland said, there are at the moment thousands of 
children that travel and arrive in Europe all alone. I think, in terms 
of child protection, the term migrant or refugee crisis cannot begin to 
explain the complexity of this phenomenon. The HOME Project is a 
nonprofit organization that, at the moment, has operations in Greece 
with a mission to offer protection, support, education, and social 
integration services to children that arrive in Greece, in Europe, all 
alone. After the EU-Turkey agreement, as Ms. Newland said, the general 
number of arrivals has decreased. However, the number of arrivals of 
unaccompanied minors is constantly increasing.
    A large part of this problem is that we don't have exact numbers. 
So according to official estimates, since the beginning of 2016 around 
11,000 unaccompanied minors have been officially registered. Now, of 
those, as we speak, 2,300 children in Greece are homeless. Which means 
they are in camps, in the streets, in detention. And if a child is not 
placed into a shelter, he or she cannot start to receive any kind of 
services, nor any information on their rights. These children are 
exposed to all sorts of dangers--from child abuse to organ trafficking 
to sexual exploitation, which is now a very urgent phenomenon in 
Greece, in the center of Athens, and on the islands. Children are 
prostituting themselves for survival.
    So it's very urgent to provide all the adequate accommodation for 
these children in Greece and in Italy, which are the entry points of 
Europe, because integration starts at the point of entry. And those 
experiences follow these children all along.
    Dr. Thompson. Thank you. Now, Ms. Newland, at the beginning in your 
first description of what's happening you described a list of things 
that you're seeing happening with children. So, detention, inability to 
get services, et cetera. Can you tell us what is actually supposed to 
be in place? What policies and procedures are supposed to be in place 
for children when they arrive at any of the European borders?
    Ms. Newland. Yes, that's a very fundamental question, Mischa. I'm 
glad you asked it. I think the first thing to understand is that all 
members of the European Union have signed the Convention on the Rights 
of the Child. The European Asylum and Migration law also incorporates 
the principles of the Convention on the Rights of the Child. And the 
convention, which is the most ratified international treaty in the 
world--every country in the world has ratified it, except the United 
States--and it requires that a child is treated as a child first and 
foremost, and is protected regardless of their immigration status, 
regardless of their legal status, period. And that is across the board. 
It's not divisible. You're not supposed to separate groups of children 
and give them differential access to their rights.
    But in fact, that happens all the time. There is a sort of 
hierarchy of benefits and protection within Europe, which does depend 
on the legal status of the child. So children who are permanent 
residents have--generally speaking, have access to the same benefits 
and protections as citizen children. Asylum seekers and unaccompanied 
minors have a degree of protection, or are supposed to have a degree of 
protection--although, you know, the capacity of some of these states 
has really been overwhelmed by the volume of children arriving. And I 
can say a bit more about that. But at the sort of bottom of the 
hierarchy are undocumented children, those who haven't applied for 
asylum, those who haven't registered with any of the authorities.
    And while some countries--10 European countries give undocumented 
children the right to education, 9 give them the right to health care. 
But that's out of 28 countries. So undocumented children have a 
particularly tough time. In addition, there are some really bad 
practices. Like, in Germany--which has received the largest number of 
refugees and asylum seekers overall--doctors are supposed to report on 
the immigration status of the children they see, which is obviously a 
huge inhibition for children from seeking medical care. I believe the 
same is Greece. So that's a bad practice that really should be 
eliminated by the construction of firewalls.
    I think, to understand some of the public opinion around this 
issue, it's also important to understand that the great majority, 
almost two-thirds of the children who arrive, are in their late teens, 
and they're overwhelmingly male. So it's 16-, 17-year-old boys who form 
the bulk of this population. And unfortunately, they are not seen as 
the most sympathetic group by many members of the public. And, when 
groups are prioritized by vulnerability, people don't necessarily think 
of almost adult males as being the most vulnerable. But in fact, in 
Afghanistan, Syria, Iraq, they are the most vulnerable to forcible 
recruitment, to being killed in the context of these conflicts.
    Dr. Thompson. Thank you. Can you talk a little bit about how this 
is actually playing out in Greece? And so once you all are able to help 
provide housing to children--and Ms. Newland specifically talked about 
adolescent males. Can you talk a little bit about what that situation 
is actually looking like in terms of what HOME Project is doing?
    Ms. Kouvelaki. I think the best way to answer your question would 
be to share a story with you. It's the story of two Syrian brothers, 
Adnan and Ayaz, age 10 and 11 years old. Adnan and Ayaz were the oldest 
boys of a family of five children. They were living with the rest of 
their family in Aleppo. After the war broke out, and because of 
financial and security reasons, they had to move to Damascus. There, 
the two boys reported witnessing firsthand bombings, killings, 
decapitations, and all forms of violence. In 2013, their parents, 
together with their three younger sisters, started their journey to 
Europe. There weren't enough resources to finance the move of the whole 
family, so the two brothers were left behind with their grandfather.
    Their family managed to reach Germany, following illegal routes 
through Greece. The two boys stopped going to school and started 
working at a hookah factory in order to support themselves. In 2015, 
the father managed to send enough money to finance their move to Europe 
via smuggling networks. Adnan and Ayaz had to walk all the way to the 
Turkish coast through very dangerous routes. They report being 
physically and sexually abused by the trafficker along the way, as well 
as being held at a house for a month where we suspect they were 
repeatedly raped.
    They tried to reach Greece three times. The first two failed and 
the kids were arrested and returned and detained in a Turkish refugee 
camp, where they experienced even more violence. The third time, they 
managed to reach the Greek island of Chios. Ayaz and Adnan were 
detained for more than three months in a closed reception facility, co-
existing with adults in horrible living conditions. One day, the 
youngest of the two brothers attempted to end his life. He tried to 
hang himself using his own t-shirt. His attempt failed because the t-
shirt was torn. The child was hospitalized with his brother for five 
hours at the local hospital and then returned to the detention center 
due to a lack of appropriate accommodation on the island.
    We were notified by a volunteer regarding this case. And in 
collaboration with the public prosecutor for minors and the local 
authorities, we went to Chios and escorted the kids to one of our 
shelters. The kids are now safe, and they're receiving a holistic 
network of services in The HOME Project shelter that covers their basic 
needs such as food, shelter of course, material provisions, medical 
support, psychological support, psychiatric supervision, education--
they started going to school--and legal support. We have started all of 
the relevant legal and administrative processes to reunify them with 
their family in Germany. Both kids suffered from physical injuries when 
they arrived, PTSD, depression, and they were often resorting to self 
harm.
    Now, Adnan and Ayaz ended up in one of our shelters, so in a way 
they're two of the fortunate lone refugee children. Sadly, this is not 
the case for the majority of the kids. At The HOME Project, we don't 
work with refugees. We don't work with migrants. We work with 
children--children that have been marginalized to the point of 
invisibility. Our mission is to provide support, protection, education, 
and social integration services to children that arrive in Greece, in 
Europe, all alone. We are currently supporting the operation of 10 
shelters. Seven of them are for boys. Six out of the seven are for 
teenage boys, 12 to 17, because this is the majority of the arrivals. 
But we also have a shelter for toddlers, and ages 6 to 11, because we 
are seeing arrivals--the percentage of younger unaccompanied minors is 
increasingly lately. And two of the shelters are for girls and 
unaccompanied minors--minor mothers with their babies. Our youngest 
child at the moment is three years old and our oldest is becoming 18 in 
the coming months.
    So The HOME Project shelter model is based on three pillars. First 
of all, we co-operate shelters with local and grassroots communities, 
where we offer a holistic network of services to the kids, offering 
them the coverage of their basic needs but also psychological, legal, 
and educational support. This is an integration model. At the moment 
we're focusing a lot on skills building and training, because our 
ultimate purpose is for the children that will stay in Greece to be 
able to integrate into the job market.
    The second element of our work is that 50 percent of our staff 
comes from the refugee community itself, and the other 50 percent from 
Greek youth that also suffer from 45 percent unemployment. And the 
third element is that we find buildings that have been abandoned or 
unrented for a very long period of time--the victims of the Greek 
financial crisis. We renovate them with minimum cost, because we want 
most of our resources to be allocated to services for the children, and 
we pay the property taxes to the owner. So what we want to do is create 
a win-win situation for everyone--for the children, for the refugees, 
but also for the Greeks. And we've seen this is the only sustainable 
way to create a community of support around the children. But also, 
that's the only way we can fight racism, xenophobia, and violent local 
reactions.
    Dr. Thompson. That was a very difficult story to listen to, but one 
that I'm glad that you shared. It details a number of the things that 
children are going through, given that there aren't necessarily safe 
routes to reach Europe at this point to escape some of the situations 
that they are currently present in. It also, I think, details what 
services are actually needed along the route. And as a staffer at the 
commission, I've been able to visit some of these places. I was able to 
see some of the shelters and actually see the children, and how they 
are receiving a secure place to be at this point, when you have 
interlocutors such as HOME Project and a number of other civil society 
and government organizations step in.
    As we heard earlier, it's not enough. And one of the reasons I 
wanted to highlight I was able to see some of these things firsthand, 
is because there have also been a number of other policymakers that 
have been able to see these things firsthand. They know the issues. 
They know the problems. But as Ms. Newland indicated earlier, there 
seems to be something that's not happening in terms of implementation. 
And I was hoping, Ms. Newland, you could talk a little bit about just 
where policymakers are on this issue in Europe, and why it is--despite 
maybe repeated policy documents and other things and really a call to 
better address this problem--we're continuing to have stories such as 
the one that Ms. Kouvelaki outlined.
    Ms. Newland. Well, there are many, many things you can criticize 
the governments for. And we have. And, you know, many groups continue 
to do that. I think it's important to realize that some of the European 
governments are trying really hard. And look at a country like Sweden--
with 5 million people, it's a tiny country. They had 40,000 
unaccompanied minors turn up 2015 into 2016, although in 2015 a third 
of all the unaccompanied minors went to Sweden, mostly Afghan older 
males. So for a small country like that, the facilities to deal with 
these children were just nowhere near adequate. And they tried very 
hard, but there are many failures. You could say the same of Germany. A 
much larger country, initially smaller numbers, but now in 2016 they 
were the top country of arrival for asylum applicants under the age of 
17.
    So having said that, I think there is also, in some countries, and 
it's been alleged in the European Union, that there's a tendency to 
view these horrible reception conditions in Greece particularly--which 
bore the brunt of the 2015 arrivals--as a sort of deterrent. You know, 
if word gets around that you're going to be in detention as a child 
with adult prisoners, in some cases that you may be kept literally in a 
prison or in a tented camp through winter conditions, that this might 
discourage people from coming.
    That is a completely unacceptable policy. And it is--I mean, it's 
just profoundly shocking. And I'm sure Sofia can tell you more about 
that, and Mischa, she's been there to see these conditions exist in 
Europe. I mean, it's just the conditions in Europe are worse than they 
are in some of the countries in the region. And I would say they are 
definitely--although Turkey is considered part of Europe--in the EU, 
reception conditions in Greece are worse than they are in Turkey.
    So, in my view, there are reasons for terrible conditions 
prevailing in the emergency phase, and no one was expecting these 
arrivals and the numbers were very high. But two years later, and more, 
I think they're beginning to run out of excuses. And their legal 
obligation under both international and EU law to protect children 
really should be paramount.
    One of the other bad practices that is occurring now--and, again, 
you can sort of understand it from a policymaker's point of view--is 
that family reunification policies have been tightened up. Germany is 
making it very difficult for recognized refugees in Germany to bring 
their families. So the Syrian brothers that Sofia was talking about, I 
hope they've arrived in Germany to join their family because it's 
getting more difficult. And you know, that, again, it's just sort of 
trying to control the numbers and better match the capacity to deliver 
services to the numbers. But it has really disastrous knock-on effects.
    Again, some of the countries--particularly Northern European 
countries--are trying hard to improve conditions, particularly for 
children, in education and health and housing. Sweden, for example, 
allows children to enroll in school even before their asylum cases are 
completed. But that is one thing, that there should be really minimal 
delays in getting children back into school. It's the most sort of 
stabilizing investment, and investment in the future, that you can 
make. Similarly, for health care, many EU countries are trying to 
incorporate asylum seekers and refugees into their systems, but there 
are real practical barriers beyond just the legal barriers that have to 
be addressed--things like language and just knowledge of where to get 
help.
    A lot of emphasis now is on integrating these populations. But the 
integration task is--sort of goes along with a, let's kind of freeze 
the numbers where they are so that we can integrate those who are here, 
rather than having a continuing stream. That is just not a realistic 
proposition as long as the conditions that are driving children and 
others out of Afghanistan, out of Iraq, out of Syria, continue to 
persist.
    Dr. Thompson. Thank you. Given there is only an hour, we are going 
to open this conversation up to the audience. One of the questions I 
hope that will be answered during that time is to really think about 
how long it is children are expected to actually be in Europe. There 
have been leaders that have talked about children as actually being 
Europe's economic future, given the declining birth rate in some 
countries. And what types of skills and things would actually be 
needed. And so I hope that's something that we can also have come out 
during the question and answer period.
    But with that, we have someone with a microphone that will bring it 
to the audience member. Please say your name, what organization you're 
with, and speak into the microphone for our online audience.
    Questioner. Hi. Thank you very much for this presentation. It was 
extremely compelling. I'm Erika Schlager with the staff of the Helsinki 
Commission.
    And I think my question is for Ms. Newland. Last week the 
government of Hungary introduced a legislative package that is 
targeting organizations that provide humanitarian assistance to 
migrants. If you're familiar with that legislative initiative, can you 
give me your thoughts on it and what it might mean if that were 
replicated elsewhere?
    Thank you.
    Ms. Newland. Well, in answer to your last question, it would be a 
real disaster if it were replicated elsewhere, because the NGO 
community has picked up quite a bit of the slack in government 
capacity. And I think the Hungarian actions are part of the sort of 
populist wave in Hungary, which has been quite focused on the sort of 
anti-immigrant, anti-refugee strand of the populist argument that has 
been very powerful in Hungary, and particularly, along with that, an 
anti-EU and anti-foreign strand.
     So the combination of a foreign headquartered humanitarian 
organization serving migrants and refugees is a particularly toxic one 
in Hungary. It's also true that Hungary has been in the top 10 among 
destinations for young asylum applicants--for 17 and under asylum 
applicants. You know, it's a country that until very recently really 
didn't have refugee laws, didn't receive migrants. This is all sort of 
quite new. And the institutional capacity just is not there.
    So the combination of a lack of capacity and the political 
environment has really made for an extremely, extremely difficult one 
for migrants and refugees, probably the most difficult one in the EU at 
the moment. And as you may know, Hungary is being reprimanded by the 
European Commission for its policies and its political rhetoric.
    Dr. Thompson. We're going to go to both sides of the room. So we'll 
come here and then we'll come here.
    Questioner. Hi. I'm Andrew Fallone with the Embassy of 
Liechtenstein, although I formerly was working with the Office of 
Migration and Integration in Freiburg, Germany. And we worked a lot 
with civil society actors to coordinate our efforts, as you addressed.
    Do you see the turn to more reliance on civil society actors--as 
many people in our office in Germany were very excited about--as 
detrimental, given that many, many actors will talk about how the 
United States model is so beneficial as it increases reliance on 
oneself and decreases reliance on one's government? They talk about a 
sort of increased independence in integration. Yet, that can be 
dangerous when the United States model is based off of such a limited 
amount of integration for refugees, given that there's no route from 
Libya to the United States, but there are routes from all sorts of 
places in Europe?
    And just given the amount of refugees, and specifically refugee 
children that countries are seeing, is a shift to--so, like the shift 
to new public management in Sweden--a shift to more reliance on civil 
society actors instead of sound government policy dangerous for the 
long-term sustainable support of refugee children and refugees in 
general?
    Ms. Newland. Well, that's a great question. And I think--do you 
want to start with that?
    Ms. Kouvelaki. At the moment in Greece there is a serious lack of 
adequate social welfare facilities to accommodate these children and 
provide the necessary services. So there's a gap. There's a gap in 
children's protection, not only for refugee children but also for Greek 
children. So someone has to fill that gap, but it all depends on the 
way this is done. We try to operate with private sector standards. I 
mean, we were founded and we're solely funded by the private sector. 
The Libra Group is our founding sponsor. And we have been recently 
scaled up by the Ikea Foundation.
    So the standards we are using are very high and transparent. There 
is always a way that civil society can operate. We try to be very 
inclusive in our model and include other NGOs with whom we collaborate. 
But our monitoring and evaluation and reporting mechanisms are quite of 
a high standard. Otherwise, we could not ensure the needed quality and 
quantity of services to provide support and care for the most 
vulnerable of the refugee and migrant population. But, I mean, were it 
not for the civil society, there wouldn't be anyone else. So I guess 
it's a very tough choice to make.
    Ms. Newland. I think in European countries with higher government 
capacity there has been quite a strong inclination to think that the 
government will handle all sorts of social service issues, both for the 
native-born population as well as for immigrants. That clearly has 
fallen apart during this crisis. And I think there is interest in 
Europe at looking at the U.S. model for refugee resettlement and the 
extent to which NGOs play a sort of key part in that. Now, those NGOs, 
in the first instance, the nine national resettlements, are funded by 
the government to do the initial stages of integration and settlement. 
But, I mean, there are a couple of things.
    For one, I think you really have to make a distinction between a 
resettlement program and an inflow of asylum seekers, because 
resettlement is planned for. You can anticipate needs and figure out 
where to place people and so on. When you have, as we have across the 
Mexican border, just an arrival--an unanticipated arrival of a lot of 
people, and particularly in that case children, it's a much more 
difficult challenge, because people just aren't prepared for it, and 
institutions aren't prepared for it. So we have many of the same issues 
as the Europeans are facing. The conditions are not quite as dire as 
they are on the Greek islands, I think, but they're pretty bad. 
Children are detained. There are very long waiting lists for asylum 
hearings--there's a backlog of over 600,000 now. So we face many of the 
same struggles, with access to education, access to medical care, and 
so on, with the children who arrive as asylum seekers in this country.
    Having said that, I think that there is a very good integration 
story, for the most part, in the United States. And that does result in 
part from a sort of tough-love policy, where refugees are expected to 
get on their feet and become self-sufficient in the shortest possible 
time. And we've looked at a number of studies on that at my institute, 
that keeping these populations dependent on government aid, making it 
possible for them to continue to depend on government aid, is not 
necessarily the best way for them to integrate.
    So I think as far as NGOs and government goes, it needs to be a 
partnership. It is a partnership here. I think that partnership is 
growing in Europe, but it has started from a much lower level because 
the social safety net funded by government has been much stronger in 
most European countries--but not all.
    Dr. Thompson. This gentleman in the front, please?
    Questioner. Thank you. I'm Scott David with the State Department.
    In the sad story that Sophia told, if I have it right, these young 
boys originally, when they reached Greece, were on one of the islands. 
You said Chios, I think. And then made it to the mainland, which you 
didn't say so but I got the impression that your shelters are on the 
mainland.
    So my question is, given the terrible conditions on the islands and 
the greater resources on the mainland, and recognizing the asylum 
process is very slow, as Kathleen just said, why has Greece been unable 
to move more of the people that are on the islands in these shelters, 
in these camps, to the mainland?
    Thank you.
    Ms. Kouvelaki. Well, the issue is the EU-Turkey agreement, to be 
perfectly honest. According to that agreement, after the 16th of March 
2016, any refugee that enters Greece is not allowed to move to the 
mainland. Now, in theory, that is not the case for unaccompanied 
minors. But what has happened is that with the closure of the borders, 
the children are now trapped in Greece, because they used to use Greece 
as a transit point to go to Germany, Sweden, Austria, anywhere else. 
But now, the children are trapped. And all the relevant accommodation 
facilities are at full capacity.
    So that's why the intervention that we are providing is very 
targeted. The goal is to increase the number of shelters in order to be 
able to move a child from the island to the mainland, because there are 
no available spaces, which is the problem at the moment, a child could 
not move. So they are imprisoned on the islands where, as Ms. Newland 
said, the situations are horrible. There are multiple violations of 
human rights and multiple threats to the mental and physical health of 
these children. So that's why The HOME Project advocates for more 
available spaces, so that there's no excuse to keep children in 
situations like that.
    Questioner. So the agreement specifies that adults have to stay on 
the islands?
    Ms. Kouvelaki. Well, paradoxically, the word ``children'' is never 
mentioned in the text of the agreement. So now in theory, unaccompanied 
minors are considered the most vulnerable part of these arrivals, so 
they should be moved to the shelters. In theory, also, a child should 
never be detained. This is a violation of the Convention of the Rights 
of the Child. But unfortunately, that's not what is currently 
happening.
    Ms. Newland. I can just add to that, under the terms of the EU-
Turkey agreement, Greece is--and European countries are entitled to 
return to Turkey any asylum seeker whose case is not accepted. So if 
people have already moved to the mainland, it's more difficult to sort 
of move them back. They're supposed to have their asylum cases heard on 
the islands, and then they can be sent back if their asylum cases fail. 
But, you know, there's just nothing like enough capacity to hear these 
cases on the islands or, indeed, anywhere in Greece. But particularly 
on the islands.
    Ms. Kouvelaki. Exactly. Just to add to that, that asylum 
applications on the islands are rarely processed because there isn't an 
adequate amount of staff or adequately trained staff to do that. So the 
implementation of the agreement is not really possible at the moment 
with the resources that exist.
    Questioner. Hi, there. I'm Siobhan Spiak with CACI International.
    I have a question for The HOME Project. As far as getting 
arrivals--you said that right now you can't really take people in right 
now. So what is the length of time that you let children stay? Is it up 
until they're 18? Or how do you process them and help move them 
forward?
    Ms. Kouvelaki. Well, in the past year we've had a record of family 
reunifications. We've had 40 family reunifications, because we give a 
big emphasis to process those cases the fastest possible. So some of 
these children leave. But then the children are eligible to stay with 
us, according to law, until they reach the age of 18. In reality, we 
never let anyone go if we haven't catered for their next step. A 
program that we're currently doing is called the Youth to Youth 
Program, that we're implementing in collaboration with the American 
Community School in Athens, where our kids buddy up with students from 
the school and they go to the campus and they do English, Greek, 
computer science, art, music, and sports. And the idea is, through 
education, to start integrating these children and bring them in touch 
with private sector stakeholders who will eventually offer jobs for 
these kids. So 10 of our kids will start working in April. It's because 
the ultimate goal is integration; we never let anyone go without the 
next step.
    Ms. Newland. And this is a huge problem in government programs and 
in many programs for youth generally, is that people age out of those 
programs. And there's really very little for them after that. They just 
sort of get released and that's it, which causes huge, huge problems. I 
mean, any country has reason to be concerned about a large population 
of unemployed young males without prospects. It's a recipe for unhappy 
outcomes.
    Ms. Kouvelaki. And if I can add something to that--this is the most 
sensitive, let's say, population in terms of expressing the violence 
that they have experienced. If we don't stop the cycle of violence, 
there's a huge risk that at some point these children will have to 
express their anger and despair. And that can prove much more dangerous 
for European societies than actually integrating them.
    Questioner. Hi. I'm Xander Kott from Congresswoman Norton's office.
    My question is, would you guys say that a bigger obstacle to 
helping these children integrate would be the lack of resources? Or 
would you say that it's more of the political climate and the political 
opposition to doing that?
    Ms. Kouvelaki. Well, in the Greek case, we're not talking about 1 
million or an unsolvable number. It's 2,300 children. So if The HOME 
Project, with the support of our donors, managed to accommodate 200 
children in one year, this is a problem that can be solvable, because 
very often we hear that this crisis is overwhelming or it can't be 
solved. And this is the best excuse not to do anything.
    Ms. Newland. Yes, I think there's a sort of iterative relationship 
between the lack of resources and the lack of political support. If 
communities have--or see children coming in and it's obvious how great 
their needs are for education, for health care, for psychological 
support in particular, and everybody knows those things cost money, and 
these are mostly pretty high tax environments anyway. So there's a sort 
of potential wedge there. And it's been great to see in many European 
countries the outpouring of support from civil society and from civil 
society organizations. But on the other hand, we've also seen the rise 
of populist movements who target refugees in particular, and who play 
on this argument, ``why are we spending money on these people when we 
have great needs at home.''
    So the lack of resources and the political potential toxicity of 
this argument sort of play into each other in a way that can be very 
difficult if leadership decides to try to take advantage of that 
politically. And it's happening probably most prominently in Hungary, 
but by no means only in Hungary. Also in many of the Eastern or the 
former Soviet countries, former Soviet bloc countries, that have very 
limited experience with receiving refugees or migrants are seeing this 
kind of populist fringe in some cases, not so fringe in others.
    Questioner. Good morning. My name is Allison Hollabaugh. I'm 
counsel at the Helsinki Commission, and I'd like to thank both of you 
for your attention to this issue and keeping us up to date on the 
latest details that we can use in our policies here.
    My question is for Ms. Kouvelaki. Thank you so much for your work 
on the front lines with these children. I'm wondering if you have heard 
of cases, such as we've heard out of the Nordic countries, where 
children are being trafficked from the shelters themselves? So living 
at the shelters at night, but then during the day disappearing and 
coming back with new cellphones and other things that would indicate 
sexual exploitation during the day. And if you have any suggestions for 
best practices that are most effective in helping to prevent those 
types of situations while respecting the freedom of the children, as 
well as to make them want to stay in the shelters voluntarily.
    Ms. Kouvelaki. You just brought up an issue that--you know, it 
happens. And we have to remember the situations these children are 
coming from. And what we also have to remember is that because of the 
EU-Turkey agreement and the conditions on the island, the kids have 
lived for a very long time in horrible conditions. And so some of the 
children--I mean, all of the children that arrive in our shelters have 
been physically abused. Many have been sexually abused. Many had to 
resort to child prostitution. And the shelters are not prisons, so we 
don't lock the children in. It's like a home with parents that take 
care of their children.
    Sometimes if we have 16- or 17-year-olds, we can't really lock them 
in. The only way we can try and prevent them from getting involved in 
criminal or illegal networks, let's say, is by giving attention to what 
is happening in the house, in the home, to be able to provide 
individualized care to them to cover their basic needs, but also give 
emphasis on their mental health. More than 35 percent of our children 
suffer from serious mental health issues. And we've seen that with time 
and with the right support they start trusting us. And they start not 
wanting to go out of the house, in the sense of getting involved in 
illegal activities.
    So I think the only solution to that is love, really, and the 
improvement of the quantity and the quality of care, to answer it in a 
more professional way. But children need a support system, a loving 
system. They need parents. Our staff has to substitute for the missing 
family and the missing social welfare state. And when that happens, we 
increase the chances of having the kids safe.
    Questioner. Thank you. Jimmy Athanaspoulos from Libra Social.
    The breadth and depth of the services provided to these children is 
amazing. What is the cost of these services, which is an holistic 
approach as we can hear--what is the cost of that? And how is that 
compared to the government-run and -operated shelters? Thank you.
    Ms. Kouvelaki. Well, we had to operate with private sector 
standards, meaning that we had to be very efficient and immediate in 
our operations. Just to give you an idea, the per unit, per child cost 
per day is around 20 euros, where in government-funded facilities it 
can be three times larger than our costs. So we try to operate with a 
minimum cost to provide the best quality of care in order to be able to 
have a sustainable 
intervention.
    Dr. Thompson. I would like to thank you both for being here today. 
If there was a comment that you wanted to make as a way of wrapping up, 
I would love to allow you to have closing remarks.
    Ms. Newland. Oh, thank you. Well, I think we've covered a lot of 
ground. And the bottom line here is really to observe the standards set 
up in the Convention on the Rights of a Child, not just as a matter of 
legal obligation but a matter of human response--treating children as 
children, understanding the needs that they have, and really trying to 
serve and protect them, as The HOME Project is doing. It's a very sort 
of shining example of good practice. And I hope it will inspire many 
others to follow that model.
    Dr. Thompson. Again, thank you both so much for being here today. 
We at the commission are very pleased that you were able to travel here 
from Greece. I think, as has been mentioned before, you're one of the 
few voices that talks about children as children, and really helps to 
humanize the situation so that people see beyond the numbers. I think 
as we've heard today, refugee and migration flows are continuing. This 
isn't a situation that's going to end tomorrow.
    While there are promising practices, there are a number of systems 
that just are not firmly in place, and in some cases the political will 
is also not in place to address the myriad of needs of youth. The 
reality is, these children are not only Europe's future, North Africa's 
future, the Middle East's future--we're in a global world. It's also 
our future. And so there's a real need to continue the focus on this 
issue, work together where we can, and really begin to embrace some of 
the promising practices that we've heard here, but also not get so 
mired in some of the problems and conflicts that we can't begin to work 
together on solutions.
    And so, with that, I thank everyone for being here. And we will be 
around for another, I think, 10 minutes or so for anyone who has 
questions afterwards.
    Thank you. [Applause.]
    [Whereupon, at 11:03 a.m., the briefing ended.]
 






  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
